                                               ENT OF HOMELAND SECURIT
                                                 Office of Inspector General
                                            Atlanta Field Office - Audit Division
                                                 3003 Chamblee Tucker Rd
                                                     Atlanta, GA 30341




                                                February 10, 2004


MEMORANDUM

TO:                Kenneth 0. Burris, Jr.


FROM:
                   Field Office Director

SUBJECT:            South Carolina Department of Transportation
                    FEMA Disaster No. 1299-DR-SC
                    Audit Report No. DA- 15-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
South Carolina Department of Transportation. The objective of the audit was to
determine whether the Department accounted for and expended FEMA funds according to
federal regulations and FEMA guidelines.

The Department received an award of $655,944 from the South Carolina Emergency
Management Division, a FEMA grantee, to remove debris, provide emergency protective
measures, and repair roads damaged as a result of Hurricane Floyd in September 1999.
The award provided 75 percent FEMA funding for 2 large projects and 21 small projects'.
The audit covered the period September 1999 to May 2001. During this period, the
Department claimed $655,944 (see Exhibit) and received $49 1,958 of FEMA funds.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the Department's accounting records, a judgmental sample of
                                                                                                           '
expenditures, and other auditing procedures considered necessary under the
circumstances.
Notice: This report remains the property of the DHS Office of inspector General (DHS-OIG) at all times and, as such, is not
to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
disclosure laws.


1
 According to EEMA regulations, a large project costs $47,800 or more and sinall project costs less than
$47,800.
